                              CLOSEOUT FOR M-94090028

        On 8 September 1994, a program officer1 brought a letter he had received from the first
complainant2that contained an allegation of misconduct in science as well as a description of a
scientific disagreement that was ultimately not considered by us to be an issue of misconduct in
science. The first complainant alleged that the subject3breached the confidentiality of peer review
when he used information and ideas that were original to the first complainant's NSF proposal4he
had received for review. The subject had allegedly used this information in a co-authored
publication' on which the subject was first of three authors. A -nd.complainant6          also brought
an allegation against the subject to our attention. He alleged that the subject had plagiarized ideas
(intellectual theft) and text in a manuscript7on which the subject was the first of five authors. The
plagiarized ideas and text allegedly came from a published article.' The second complainant told
us that he had discovered the plagiarism when he was asked by the journal to review the
manuscript.

        OIG contacted the first complainant who described the strong competition that existed
between himself and the subject's research group and the resulting scientific disagreement. The
first complainant explained that he had presented some of his ideas in public lectures before he
submitted his NSF proposal containing these same ideas. He said that, although the subject
attended these lectures, he suspected that the subject might have taken these ideas fiom his NSF
proposal as an ad hoe reviewer. The first complainant also explained that the intent of his letter to
the NSF program officer was to exclude the subject permanently as a reviewer of his future NSF
proposals.
                              CLOSEOUT FOR M-94090028


        NSF's computerized reviewer system file showed that the subject has never received any of
the first complainant's proposals to review. In addition, the first complainant's statement, that he
had presented the same information contained in his proposal at public lectures attended by the
subject, indicated that the information was publicly available. OIG concluded that there was no
substance to the allegation that the subject had breached the confidentiality of peer review.

        According to the second complainant, the subject committed intellectual theft when he
presented some ideas from the article in part of a paragraph in the manuscript without properly
citing the published article. The second complainant explained that, as the first author of the
manuscript and the actual expert in the field represented by the ideas, the subject's failure to cite
the published article created the impression that the ideas were his and his co-authors'. The
second complainant had noted in his written review of the manuscript that he thought that some of
the information in the paragraph &is a rehash of what was stated in another publication referenced
by the subject in that same paragraph.

        OIG reviewed the information available about the allegation of intellectual theft and
determined that the references cited by the subject and his co-authors in the paragraph contained
the ideas presented. OIG concluded that there was no substance to the allegation that the subject
and his co-authors committed intellectual theft. In reviewing the alleged plagiarized text, OIG
noted that the text was found in two separate phrases and that 1) fewer than 24 words appeared as
substantially similar; 2) the phrases were expressed in a style common in this scientific field; and
3) the paragraph in which the substantially similar text appeared contained a citation to the article.
Because of these reasons, we concluded that the allegation of verbatim plagiarism had no
substance.

       This case should be closed and no further action taken.

cc: Staff Scientist, Attorney, AIG Oversight, IG




                                          Page 2 of 2
